filed
AUG 0 7 2019

3n ®(>e

Supreme Court of tfie Unitcb States
OFRA LEVIN,
Petitioner,
v.

J.P. MORGAN CHASE BANK, N.A.,
GENERAL MOTORS ACCEPTANCE CORPORATION,
WELLS FARGO BANK, NAAS TRUSTEE, et al.,
Respondents.

On Petition For Writ Of Certiorari
To The New York Court Of Appeals

PETITION FOR A WRIT OF CERTIORARI

Ofra Levin
Petitioner, Pro se
960 Cliffside Avenue
N. Woodmere, NY 11581
(516) 791-6043
i

RECEIVED
OCT 21 2(119
OFFICE OF THE CLERK
SUPREME COURT. U.S.

'

■*>

♦

1

*

I

QUESTIONS PRESENTED
1. Whether a party who lacks standing at the com­
mencement of the action can obtain, or be granted,
standing, four and a half years after the action started.
2. Whether an injured party has the right to
appellate review of a case on the merits.

11

LIST OF PARTIES
Petitioner - Ofra Levin
Respondent — J.P. Morgan Chase Bank, N.A.
Respondent - Wells Fargo Bank, N.A., as Trustee
Defendants/Respondents (Not parties to this Petition/
Parties to the Underlying Litigation) — General Motors
Acceptance Corporation, New York Department of Tax­
ation & Finance, “John Does,” and “Jane Does.”
STATEMENT OF RELATED CASES
J.P. Morgan Chase v. Levin, No. 10-000337, Supreme
Court of Nassau County. Judgment entered July 24,
2015.
J.P. Morgan Chase v. Levin, No. 2015-07941, Supreme
Court of the State of New York, Appellate Division:
Second Judicial Department. Judgment entered May
16, 2018.
J.P. Morgan Chase v. Levin, No. 2015-07941, Motion to
renew and Reargue, Supreme Court of the State of
New York, Appellate Division: Second Judicial Depart­
ment. Denied October 4, 2018.
J.P. Morgan Chase v. Levin, APL 2018-00195 Prelimi­
nary Appeal statement filed November 1, 2018 with
the Court of Appeals for an ‘as of right’ appeal. Denied.
Decided and Entered on January 10, 2019.

Ill

STATEMENT OF RELATED CASES - Continued
J.P. Morgan Chase v. Levin, MOT 2019-222. Motion for
Leave to Appeal to the Court of Appeals filed February
19,2019. Denied. Decided and Entered on May 9,2019.

IV

TABLE OF CONTENTS
Page
OPINIONS BELOW.......................................

1

JURISDICTION..............................................

1

RELEVANT PROVISIONS...........................

1

STATEMENT OF THE CASE.......................

2

ARGUMENT IN SUPPORT OF PETITION

7

REASONS FOR GRANTING THE WRIT....

13

CONCLUSION................................................

14

INDEX TO APPENDICES
APPENDIX “A” - Order Denying Leave to Ap­
peal, entered by the State of New York Court
of Appeals on May 9, 2019................................

la

APPENDIX “B” - Decision & Order of the Su­
preme Court of New York, Second Judicial De­
partment Appellate Division, dated May 16,
2018....................................................................

2a

APPENDIX “C” - Judgment of the Supreme
Court, Nassau County entered on July 24,
2015....................................................................
APPENDIX “D” - Judgment of the Supreme
Court, Nassau County entered on December
10,2012..............................................................

6a

12a

V

TABLE OF AUTHORITIES
Page
Cases
Burnside Coal & Oil v. City of New York, 73
NY2d 852 [1988]....................................................

11

Collateral Loanbrokers Assn. ofN.Y., Inc. u. City
ofNew York, 47 Misc 3d 1225 [A], 2015 NY Slip
Op 50847[U] [Sup Ct. Bronx County 2015]....

12

Deutsche Bank v. Vasquez, Index No. 4924/11
(Sup. Ct. Nassau Cty, May 8, 2012)...................

5

Matter ofDeLong, 89 AD2d 368............................. 9,12
Raske v. Next Mgt., LLC, 40 Misc 3d 1240[A],
2013 NY Slip Op 51514[U] [Sup Ct. NY
County 2013]..........................................................

8

Ryan, Inc. v. New York State Dept, of Taxation &
Fin., 26 Misc 3d 563 [Sup Ct. NY County
2009].........................................................................

8

Saratoga County Chamber of Commerce v.
Pataki, 100 NY2d 801 [2003]..............................

8

Society of Plastics Indus, v. County of Suffolk, 77
NY2d 761 [1991]...................................................

12

Other Authorities
CPLR 5701(c)................

9,12

CPLR 5602(a)(l)(i).......

11

UCC §§ 3-202, and 204

5

1
IN THE SUPREME COURT
OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certio­
rari issue to review the order below.

OPINIONS BELOW
The opinion of the highest state court to review the
merits appears at Appendix A to the petition and is
found at JP Morgan Chase Bank, NA, v. Ofra Levin,
Wells Fargo Bank, NA, et al., State of New York Court
of Appeals, Mo. No. 2019-222.

JURISDICTION
The date on which the highest state court re­
viewed the case was May 9, 2019. A copy of that deci­
sion appears at Appendix A.
The jurisdiction of this Court is invoked under 28
U.S.C. §1257(a).

RELEVANT PROVISIONS
There are no relevant provisions involved.

2

STATEMENT OF THE CASE
On or about January 10, 2010, Respondent J.P.
Morgan Chase Bank, N.A. (“Chase”) filed an action to
foreclose a mortgage securing the property located at
960 Cliffside Avenue, North Woodmere, NY 11581. The
mortgage being foreclosed was a second mortgage
home equity line of credit encumbrance on the subject
property, which is owned in fee simple by Petitioner.
Upon receipt and notice of the pending action, Pe­
titioner filed her Answer and Affirmative' Defenses.
Nearly two years after the initial filing by Respondent,
Wells Fargo Bank, N.A. (“Wells Fargo”) also filed its
Answer and Affirmative Defenses as a responsive
pleading to the foreclosure complaint. In its response,
Wells Fargo claimed that it held a mortgage interest in
the subject property superior to that interest of Re­
spondent Chase. On January 17, 2012, Wells Fargo
filed an amended answer with Counterclaims and
Crossclaims alleging this same interest and seeking a
final summary judgment and declaratory judgment re­
lated to the issue of standing and its lien interest in
the subject property.
On January 31, 2012, Petitioner filed a motion
with Order to Show Cause, in which Petitioner sought
a Court order striking Wells Fargo’s Answer, Affirma­
tive Defenses, and Counterclaims and to impose sanc­
tions for frivolous litigation practices. Petitioner filed a
detailed Affidavit in Support of the Order to Show
Cause. Significant questions arose as a result, particu­
larly as to whether Wells Fargo was a proper “party in

3
interest” to the pending litigation, as Petitioner submits
that at the time it interposed its Answer, Affirmative
Defenses, and Counterclaims, it did not have the proper
legal standing to interpose such a pleading. In support
of Petitioner’s contentions, Petitioner submitted docu­
mentary evidence showing “that the assignment of the
subject mortgage to plaintiff was infirm, and further
that the ownership rights to the subject mortgage
could not have been assigned to Wells Fargo because
the rights to assign were never held by the previous
servicer.” Petitioner further submitted evidence that
showed that the 2nd assignment of the mortgage (pur­
portedly made by American Home Mortgage Servicing,
Inc., as the successor of Option One Mortgage Corpo­
ration) was signed by employees of DocX, a known
robo-signing and fraudulent entity.
In response to Petitioner’s motion with Order to
Show Cause, on February 27, 2012, Wells Fargo filed
an opposition to the motion.
In its opposition, Wells Fargo argued that “facts
have changed,” and that as a result, “the circumstances
as they exist today are not the same as they were when
the prior action was brought.”
On or about March 29, 2012, Petitioner filed a re­
ply Affidavit in Support of her motion with Order to
Show Cause. The Court records show that on April 4,
2012, Wells Fargo filed with the Court an unauthorized
Sur-Reply Affidavit purportedly made and executed by
David J. Merrill on April 13, 2012, as Assistant Secre­
tary for American Home Mortgage Servicing, Inc.

4
Attached to this Affidavit was a note endorsed to Op­
tion One Mortgage Corporation and a single allonge
signed by an unidentified person. On April 19, 2012,
Wells Fargo filed a 2nd unauthorized Sur-Reply Affida­
vit and asserted that a response was required due to
Petitioner including substantial new material in her
Affidavit that was not made part of the original motion.
Upon information and belief, the 1st Sur-Reply Affida­
vit was filed in furtherance of Wells Fargo’s claim that
it is in fact the holder of the mortgage and the note at
the time it interposed its Answer, Affirmative De­
fenses, and Counterclaims. Contrary to Wells Fargo
claims in its Sur-Reply and second Sur-Reply Affidavit,
Petitioner did not raise new issues in her Affidavit in
further support of her motion with Order to Show
Cause. Petitioner’s Affidavit was filed “in further sup­
port.” Thus, it was filed to provide further support to
her original motion, which is allowed under New York
law.
Subsequent to Petitioner’s and Wells Fargo’s fil­
ings, the Honorable Supreme Court Justice Thomas A.
Adams issued his order on June 1, 2012 denying in its
entirety Petitioner’s motion to strike the Answer, Af­
firmative Defenses, and Counterclaims interposed by
Wells Fargo. In its order, the Court stated that the mo­
tion was “without merit and procedurally defective.”
The Court concluded (respectfully submitted in error)
that “Wells Fargo has sufficiently alleged that it was
the holder of a Note and Mortgage at the time it inter­
posed its answer, affirmative defenses and counter­
claims.” This was in error, as at the time of the filing of

5
the amended complaint, Wells Fargo lacked any ade­
quate legal standing as it was not the holder of both
the Note and Mortgage. The June 1,2012 order goes on
to state that Wells Fargo presented “proof of the writ­
ten assignment of the mortgage” at the time it inter­
posed its answer. Petitioner respectfully submits that
this was an incorrect determination by the Court, as
Wells Fargo failed through its filings to establish that
it properly held the Note and Mortgage on the subject
property while neither the answer nor the amended
answer included any proof of the assignment of the
mortgage.
The Supreme Court had already ruled in a prior
decision that “physical possession of the promissory
Note is insufficient to provide a party with standing.”
See Deutsche Bank v. Vasquez, Index No. 4924/11 (Sup.
Ct. Nassau Cty, May 8, 2012). Relying on UCC §§ 3202, and 204, the Court noted that “the negotiation of
a Promissory Note required a specific endorsement in
favor of the party seeking to enforce the Note, or an
endorsement in blank.” Id. at pg. 3. In this case, Wells
Fargo had neither. Wells Fargo deliberately avoided
the issues presented in Petitioner’s moving papers in
order to gloss over the fraudulent documents which
they provided to the Court. Upon review of Petitioner’s
motion and Wells Fargo’s opposition, the Court issued
a ruling on or about December 6, 2012. The Court
agreed with Petitioner by further declaring in the De­
cember 6, 2012 order that “as the movant has properly
raised the issue of standing, Wells Fargo must prove its
standing to be entitled to relief.” See Appendix “D,”

6
Page 19a. To date, Wells Fargo has failed to prove that
it has the proper legal standing. Petitioner submitted
to the Second Department Appellate Division that due
to Wells Fargo’s lack of standing, the entry of Summary
Judgment in its favor should not have been entered,
and the Supreme Court erred in entering judgment in
its favor, when the Court had already entered an order
stating that Wells Fargo must prove its standing to be
entitled to relief.
On or about September 29, 2014, Chase and Wells
Fargo reached an agreement whereby Chase consented
to some of Wells Fargo’s affirmative defenses, counter­
claims, and crossclaims. This was done without notice
to the other interested parties, namely Petitioner.
The order of summary judgment was timely ap­
pealed to the Second Judicial Department Appellate
Division. After full briefing on the merits, the Appellate
Division issued its Decision & Order on May 16, 2018
affirming the Supreme Court’s ruling. Petitioner im­
mediately sought further appellate review, first via
briefing, which was dismissed by the State of New York
Court of Appeals on January 10, 2019 for what the
Court described as lack of a “substantive constitutional
question,” and then via Petitioner’s timely motion for
leave to appeal to the Court of Appeals, which was de­
nied on May 9, 2019. This petition follows.
\

7
ARGUMENT IN SUPPORT OF PETITION
I.

Standing is a legal requirement for a Party
to Intercede in a Legal Action. Respondent
Wells Fargo failed to Demonstrate Stand­
ing, thus leading to an Erroneous Order of
Summary Judgment against Petitioner.

The cornerstone of the American judicial system is
due process. Due process considerations include, as a
threshold matter, that the parties litigating have the
requisite standing, or interest in the matter sufficient
to warrant Court intervention and/or only awarding
relief in favor of those parties who have sufficiently
demonstrated their legal standing to seek relief. In the
case herein, summary judgment was awarded to a
party who failed to demonstrate the requisite level of
standing necessary to be granted relief. In fact, the Su­
preme Court found, and the Appellate Division subse­
quently affirmed, that Wells Fargo established standing
due to a subordination agreement Wells Fargo allegedly
entered into with Chase in August 2006. See Appendix
“B”, Page 3a. However, contrary to the appellate panel’s
decision, the facts clearly demonstrate otherwise. When
the action commenced on January 7, 2010, Chase and
Wells Fargo lacked a duly filed, recorded and enforcea­
ble subordination agreement. The only subordination
agreement ever proffered to Levin, or the Court for
that matter, was a 2006 subordination agreement be­
tween Chase and Superior Home Mortgage, the origi­
nating lender of Petitioner’s loan. Wells Fargo was
never a party in interest to the subordination agree­
ment. As such, and as demonstrated to no avail to the

8
lower tribunals, no subordination agreement ever ex­
isted between Chase and Wells Fargo. Wells Fargo has
never been a party to a subordination agreement
which confers any standing to it in this matter.
“Standing ... is critical to the proper functioning
of the judicial system. It is a threshold issue. If stand­
ing is denied, the pathway to the courthouse is blocked.
The plaintiff who has standing, however, may cross the
threshold and seek judicial redress. It is difficult to
draw an exquisitely sharp line separating the worthy
litigant from one who would generate a lawsuit to ad­
vance someone else’s cause. The rules governing stand­
ing help courts separate the tangible from the abstract
or speculative injury, and the genuinely aggrieved from
the judicial dilettante or amorphous claimant.” See Sa­
ratoga County Chamber of Commerce v. Pataki, 100
NY2d 801, 812 [2003]. “In New York, ‘a plaintiff may
not proceed with an action in the absence of standing. 5 »
Raske v. Next Mgt., LLC, 40 Misc 3d 1240[A], 2013 NY
Slip Op 51514[U], *7 [Sup Ct. NY County 2013], quot­
ing Ryan, Inc. u. New York State Dept, of Taxation &
Fin., 26 Misc 3d 563, 567 [Sup Ct. NY County 2009]).
“The plaintiff must have an injury in fact in order to
bring a cause of action against a particular defendant.”
(id., citing Silver v. Pataki, 96 NY2d 532, 539 [2001]).
Wells Fargo has never demonstrated its right to bring
forth its claims against Petitioner in this action. Wells
Fargo has never proffered any evidence that it has suf­
fered an injury in fact. Neither the trial court nor the
appellate division found that Wells Fargo had suffered

9
any injury in fact which would confer standing upon
Wells Fargo.
Additionally, it is undisputed that Petitioner is an
aggrieved party, a necessary element in this Court’s re­
view. An “aggrieved party may seek permission to ap­
peal.” See CPLR 5701(c). A party is aggrieved when he
or she “has a direct interest in the controversy which
is affected by the result and [when] the adjudication
has a binding force against the rights, person or prop­
erty of the party.’ ” Matter ofDeLong, 89 AD2d 368,370.
Here, Petitioner’s possessory interest in the subject
property at the heart of the underlying action has been
affected by the lower court’s ruling. Based on an al­
leged enforceable subordination agreement, the lower
court deemed Wells Fargo’s mortgage interest to be su­
perior to any and all other encumbrances. In essence,
the lower tribunal declared that Wells Fargo has a le­
gal and equitable interest in the property and can
therefore proffer evidence in support of its standing to
foreclose. Petitioner contends that Wells Fargo’s efforts
in asserting an interest in the subject property is
wrongful, unlawful, and based on fraudulently created
and manufactured documents.
This Court, in its Decision and Order stated that
Petitioner “failed to raise a triable issue of fact,” and
that Petitioner “does not dispute the validity of Wells
Fargo’s mortgage.” See Appendix “B,” Page 4a. These
statements could not be further from the truth and
provided the basis for an appeal to the Court of Ap­
peals. Unfortunately, the Court of Appeals dismissed

10
and denied Petitioner the right to appellate review on
the merits.
It is undisputed that Petitioner has, throughout
the course of this 9-year litigation, challenged the va­
lidity of mortgage assignments and allonges relied
upon by Wells Fargo in asserting an interest in the sub­
ject property. It is Petitioner’s position that Wells Fargo
lacked standing to bring forth its counterclaims and
cross claims, and as such, the lower tribunals erred as
a matter of law in declaring that standing “is not an
issue” herein and granting Wells Fargo its requested
relief.
The Fourteenth Amendment to the United States
Constitution explicitly provides that no State shall “de­
prive any person of life, liberty, or property, without
due process of law.” Due process has many meanings
and many variations depending on its context. At a
minimum, in the civil law arena, it requires that the
Court accept competent evidence, provide all parties
with a fair and reasonable opportunity to be heard, and
to enter findings based on truthful competent evidence.
Petitioner submits that the lower tribunals here vio­
lated her constitutional right to due process by accept­
ing false or fabricated evidence and preventing
Petitioner from a fair and equitable opportunity to re­
fute the fabricated evidence put forth by the other par­
ties. Petitioner’s due process rights were further
violated when the appellate division found, without
competent evidence, that Wells Fargo had standing to
bring its claims based, in large part, on the subordina­
tion agreement it purportedly entered into with Chase.

11
This was never an argument made to the Supreme
Court; thus, Petitioner had no reason to attack it in the
appellate briefs. The appellate division reached its con­
clusion without providing Petitioner an opportunity to
be heard on the merits of this finding. Thus, Petitioner
was deprived of due process in relation to her right to
attack Wells Fargo’s standing on this ground.
II.

In violation of Due Process, the Court of Ap­
peals Denied Petitioner Leave to Appeal.

CPLR 5602(a)(l)(i) allows a litigant to seek leave
to appeal from a final Appellate Division order entered
in an action originating in the Supreme Court, a
County Court, a Surrogate’s Court, the Family Court,
the Court of Claims, an administrative agency, or an
arbitration. The judgment sought to be appealed from
must be a final judgment. The parties cannot simply
enter a “nonfinal” judgment on the Appellate Division
order (Burnside Coal & Oil v City of New York, lv dis­
missed 73 NY2d 852 [1988]). Here, the judgment
sought to be appealed was a final order, entered by the
Supreme Court, which granted relief to Wells Fargo on
its motion for summary judgment. Thus, it was appro­
priate for Petitioner to seek leave to appeal from the
Court of Appeals.
“The existence of an injury in fact - an actual legal
stake in the matter being adjudicated - ensures that
the party seeking review has some concrete interest in
prosecuting the action which casts the dispute in a
form traditionally capable of judicial resolution.

12
Under the injury in fact analysis standing exists
when the plaintiff has sustained actual injury, mean­
ing that he/she has an actual legal stake in the in the
[sic] matter being litigated.” Collateral Loanbrokers
Assn, ofNY., Inc. v City ofNew York, 47 Misc 3d 1225 [A],
2015 NY Slip Op 50847 [U], *5 [Sup Ct. Bronx County
2015] [internal quotation marks and parenthetical
omitted], quoting Society of Plastics Indus, v County of
Suffolk, 77 NY2d 761, 773 [1991],
It is undisputed that Petitioner is an aggrieved
party, a necessary element in this Court’s review. An
“aggrieved party may seek permission to appeal.” See
CPLR 5701(c). A party is aggrieved when he or she
“has a direct interest in the controversy which is af­
fected by the result and [when] the adjudication has a
binding force against the rights, person or property of
the party.’ ” Matter ofDeLong, 89 AD2d 368, 370. Here,
Petitioner’s possessory interest in the subject property
at the heart of the underlying action has been affected
by the lower court’s ruling. Based on an alleged subor­
dination agreement, the lower court deemed Wells
Fargo’s mortgage interest to be superior to any and all
other encumbrances. In essence, the lower tribunal de­
clared that Wells Fargo has a legal and equitable inter­
est in the property and can therefore proffer evidence
in support of its standing to foreclose. Petitioner con­
tends that Wells Fargo’s efforts in asserting an interest
in the subject property is wrongful, unlawful, and
based on fraudulently created and manufactured doc­
uments. Accordingly, Petitioner is an injured party who
is entitled to appellate review on the merits.

13
Petitioner was never given a fair and equitable op­
portunity to pursue key material issues on appeal,
thus justifying her right to appeal on the merits.

REASONS FOR GRANTING THE PETITION
For the reasons herein, the petition for writ of cer­
tiorari should be granted.
Standing
Every day American citizens enter into the court
system around the country and seek standing to liti­
gate their claims. Many are pro se, a breed not favored
by the courts. In many instances, they fail to under­
stand that absent standing, they will be out of the
court within a couple of months. Here, Petitioner pre­
sents to this Court the case of a litigant obtaining
standing four and a half years after the action was
commenced, despite that fact that the trial court found
that the litigant lacks standing.
Due Process
Furthermore, the constitution infers that an ap­
peal will be granted to every citizen. The right to ap­
peal a case may be inferred from Article I, Section 8 of
the Constitution. One clause of that section states that
Congress has the right to set up courts that will be in­
ferior to the Supreme Court. This implies that there
will be appellate courts, which also implies that

14
appeals will happen. The right to appeal can also be
inferred from Article III, Section 2. That section says
(among other things) that the Supreme Court will have
appellate jurisdiction in certain types of cases. This,
too, implies that appeals are permitted. A Petitioner
should expect that the appeal will be on the merits. He
does not expect that the appeal process will be a second
trial by the appellate courts on documents not argued
in the trial court, a process he did not participate in
the appeal papers. Therefore, the appellate court here
destroyed the appeal and rendered the appeal moot. In
doing so, Petitioner was denied the rights afforded her
under the due process clause for appellate review.

CONCLUSION
For the reasons herein, the petition for writ of cer­
tiorari should be granted.
Originally filed: August 7, 2019
Re-filed: October 17, 2019
Respectfully submitted,
Ofra Levin
Petitioner, Pro se
960 Cliffside Avenue
N. Woodmere, NY 11581
(516) 791-6043

